U.S. Department of                                             Office of Inspector General
Transportation
Office of the Secretary
of Transportation



            DOT OIG ECONOMIC RECOVERY OVERSIGHT PLAN

The American Recovery and Reinvestment Act (ARRA) of 2009 designated $20
million to DOT OIG through Fiscal Year 2013 to conduct audits and
investigations of DOT projects and activities funded by ARRA. In anticipation of
ARRA’s passage, we initiated a three-phase approach to conducting related audit
and investigative work, expanded our investigative outreach efforts, and
maximized new funding and program flexibilities. The actions we have taken and
plan to take will help position our Office to meet the increased workload under
ARRA and protect the Federal investment over the long term.


Using a Three-Phase Approach to Emphasize High-Risk Areas and Promptly
Report Results

Phase 1 (January 2009 – March 2009)

 Conducted a comprehensive review of prior reports and testimonies to identify
  major challenges facing DOT with the implementation of ARRA.

 Identified a number of ongoing audits and investigation activities that directly
  relate to the challenges facing DOT under ARRA. We plan to issue the key
  results of these audits on a “fast track” in the form of “ARRA Advisories.”

 Issued March 31 report, “ARRA 2009: Oversight Challenges Facing the
  Department of Transportation,” which included 3 major challenges and 10
  focus areas.

Phase 2 (April 2009 – August 2009)

 Conduct a systematic scan or structured survey of the DOT agencies that
  received funding in ARRA, based on the 10 focus areas identified in our March
  report.

 Examine vulnerabilities in program management and planning that could
  impede DOT’s ability to provide effective oversight to ARRA-funded projects
  and meet new statutory and OMB requirements.


                                                                                        1
 Plan to issue the results of Phase 2 during summer 2009 through a series of
  ARRA Advisories to the Department. All ARRA Advisories and reports will
  be posted to our website.

Phase 3 (September 2009 – September 2013+)

 Target for audit and investigation, specific DOT programs and projects which
  emerged as high risk areas as a result of the scans completed in Phase 2.

 Develop a long-term plan that lays out our ARRA audits and investigative
  initiatives.


Mitigating the Risks of Fraud

 Conduct fraud awareness and prevention activities to alert DOT staff and
  grantees, including contractors, at all levels of government on how to
  recognize, prevent, and report suspected fraud.

 Facilitate fraud, waste, and abuse workshops for officials responsible for
  oversight within DOT’s Operating Administrations and state and local
  agencies receiving ARRA funds.

 Distribute materials such as Hotline posters and “red flag” fraud indicator
  cards to support the oversight efforts of Federal, state, and local agencies.

 Investigate allegations of fraud and whistleblower reprisal.

 Present cases to the Department of Justice for prosecution.

 Work with DOT and states to help ensure appropriate suspension and
  debarment actions are taken.


Working Aggressively to Hire Staff with Requisite Skills

  Plan to hire up to 37 new FTE (auditors, analysts and investigators at various
   grade levels) in Fiscal Years 2009 and 2010.

  Utilize rehired annuitants, term appointments and contractors to supplement
   our work, as necessary. (Note: We applied for and received from the Office
   of Personnel Management, authority to waive dual-compensation restrictions
   on rehired annuitants.).

    Assess workforce needs, periodically, to ensure we have staff with requisite
     skills to conduct ARRA work.


                                                                                    2
